HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility
of Blue Cross and Blue Shield of Montana, Inc.,"(A-05-04-00060)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross and
Blue Shield of Montana, Inc.," (A-05-04-00060)
September 3, 2004
Complete
Text of Report is available in PDF format (165 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments,
attributable to Blue Cross and Blue Shield of Montana, Inc. (BCBS of Montana), contained in a database of payments made
under the administrative responsibility of nine Medicare Fiscal Intermediaries (FIs).  Our review of the database
estimated that $187,458 of ineligible SNF payments were made under the administrative responsibility of BCBS of Montana
during calendar years 1997 through 2001.  The overpayments occurred due to the absence of an automated cross-check,
within the Centers for Medicare & Medicaid Services Common Working File and the FI's claims processing systems, verifying
that a three consecutive day inpatient hospital stay occurred prior to SNF admission.  BCBS of Montana agreed that
overpayments occurred however; they will not initiate recovery actions on the ineligible payments within our database due
to a CMS memorandum instructing all FIs not to seek recovery of overpayments identified by the OIG.